CERTIFICATE OF SERVICE
NO. TBD
Bruce H. Zitka and Susan k. Hernandez-Zitka
Petitioners,
v.
State of Michigan
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BRUCE
H. ZITKA AND SUSAN K. HERNANDEZ-ZITKA PETITION FOR WRIT OF CERTIORARI, by mailing three (3)
true and correct copies of the same by USPS Priority mail, prepaid for delivery to the following
address.
Dana M. Nessel
Michigan Attorney General
P.O. Box 30212
Lansing, MI 48909-7712
(517) 335-7624
Counsel for State of Michigan

Lucas DeDeus

August 30, 2021
SCP Tracking: Ambrose-16818 Farmington Road-Cover White

